IN THE SUPREME COURT OF THE UNITED STATES

LEONTARITIS, JOHN D.
Petitioner
vs.

No:

20-1614

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
May 26, 2021
cc:
CHARLES RANDALL FLORES
BECK REDDEN LLP
1221 MCKINNEY ST.
SUITE 4500
HOUSTON, TX 77010
FEDERICO REYNAL
FERTITTA REYNAL, LLP
815 WALKER STREET
SUITE 1553
HOUSTON, TX 77002

